                                                             Issue Date
                                                                  December 26, 2007
                                                             Audit Report Number
                                                                   2008-AT-1003




TO:        Gary A. Causey, Director, Jacksonville Community Planning and Development
           Hub, 4HD



FROM:      James D. McKay, Regional Inspector General for Audit, Region IV, 4AGA

SUBJECT:   The City of Jacksonville, FL Lacked Proper Support for Some Subrecipient
           Purchases and Expenditures


                                HIGHLIGHTS

 What We Audited and Why


           We reviewed the City of Jacksonville/County of Duval, Florida’s (City)
           Community Development Block Grant program (CDBG). We conducted the
           review as part of the U.S. Department of Housing and Urban Development
           (HUD), Office of the Inspector General’s annual audit plan. Our objectives were
           to determine whether the City complied with CDBG regulations and requirements
           related to (a) use of competition when purchasing goods and services, (b)
           eligibility of public facilities/improvements costs, (c) financial management
           systems, (d) charging direct and indirect costs, (e) eligibility of housing
           rehabilitation participants, and (f) contracting with and monitoring of
           subrecipients.




Table of Contents
 What We Found

           The review did not identify reportable conditions for most of the cited objectives.
           However, the City needs to improve controls to ensure proper justification for
           sole source procurements and that subrecipients only use program funds for
           specific City-approved activities. We identified subrecipients that did not
           properly document or justify sole source procurements totaling $156,000 for four
           purchases. We also identified one instance in which the City reimbursed a
           subrecipient $34,552 for costs that were not for the activity component the City
           approved. These conditions occurred because the City did not adequately review
           the subrecipients’ use of sole source procurements and because it did not
           adequately review a subrecipient’s request for payment. As a result, the City
           could not adequately support the reasonableness of $156,000 in CDBG
           disbursements and the $34,552 paid for costs not associated with the City-
           approved activity.

What We Recommend


           We recommend that the Director of HUD’s Office of Community Planning and
           Development require the City to establish and implement controls to ensure
           compliance with requirements for sole source purchases and that subrecipients are
           only reimbursed for costs incurred for activities approved in their funding request.
           The City should be required to reimburse the program for any portion of the
           $190,552 that it cannot support as being reasonable and having been incurred for
           the City-approved activity. Any reimbursements should be made from nonfederal
           funds.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided our discussion draft audit report to the City on November 02, 2007.
           We held an exit conference on November 20, 2007. The City provided written
           comments on December 3, 2007. It generally disagreed with our finding.

           The complete text of the City’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




Table of Contents
                                          2
                           TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit

      Finding 1: The City Lacked Proper Support for Some Subrecipient Sole Source
                 Procurements and Program Expenditures                              5

Scope and Methodology                                                               8

Internal Controls                                                                   9

Appendixes
   A. Schedule of Questioned Costs                                                  10
   B. Auditee Comments and OIG’s Evaluation                                         11




                                          3
                      BACKGROUND AND OBJECTIVES

The City of Jacksonville/County of Duval (City) is an entitlement recipient of Community
Development Block Grant (CDBG) funds approved by the U.S. Department of Housing and
Urban Development (HUD). From October 2004 through September 2007, the City received
more than $21.6 million in CDBG funding. The City is a political entity created by Chapter 67-
1320 of the Laws of Florida. The consolidated city government is comprised of nineteen elected
City Council members and the Mayor. The City administers the program through its Community
Development Division.

The City uses its CDBG funds for a wide range of housing and community development
activities. The activities are directed toward neighborhood revitalization, economic
development, and improved community facilities and services. The City must give “maximum
feasible priority” to activities that will benefit low- and moderate-income persons or aid in the
prevention or elimination of slums or blight. The City may also use CDBG funds to meet other
community development needs that present a serious and immediate threat to the health or
welfare of the communities.

Our objectives were to determine whether the City complied with CDBG regulations and
requirements related to (a) use of competition when purchasing goods and services, (b) eligibility
of public facilities/improvements costs, (c) financial management systems, (d) charging direct
and indirect costs, (e) eligibility of housing rehabilitation participants, and (f) contracting with
and monitoring of subrecipients.




  Table of Contents

                                              4
                                RESULTS OF AUDIT

Finding 1: The City Lacked Proper Support for Some Subrecipient Sole
           Source Procurements and Program Expenditures
The City needs to improve controls to ensure that subrecipients provide proper justification for
sole source procurements and only use program funds for approved activities. The review
identified $156,000 for four procurements in which nonprofit subrecipients did not document or
follow competitive procurement requirements and one $34,552 disbursement that was not
supported as having been paid for the approved activity. These conditions occurred because the
City did not adequately review the subrecipient’s use of sole source procurements and because it
did not adequately review a subrecipient’s request for payment. As a result, the City could not
adequately support the reasonableness of $156,000 in CDBG disbursements for sole source
purchases and the $34,552 that was not supported as having been paid for the approved activity.



 Procurement Standards Not
 Followed

              Program regulations provide that nonprofit subrecipients shall comply with HUD
              procurement standards contained in 24 CFR [Code of Federal Regulations] 84.40-
              48. The standards include conducting procurements using full and open
              competition. Office of Management and Budget Circulars A-87 (C) and A-122
              (A)(2)(g) require costs charged to a federal award to be adequately documented.
              We reviewed more than $2.4 million for 12 contracts awarded between October
              2004 and March 2007 by the City or its subrecipients and found procurement
              problems with four contracts and questionable support for payments made for one
              contract. Each instance involved contracts awarded by nonprofit subrecipients.
              Specifically, the review identified

              •       $86,000 expended by one subrecipient on a sole source purchase of three
                      specially equipped vehicles. The subrecipient purchased the vehicles to
                      deliver food to senior citizens. A City official stated that the City had
                      funded the subrecipient for many years and the subrecipient always used
                      the same North Carolina vendor, claiming that it was the only provider of
                      the specialized vehicles. The City did not verify or require proof to
                      support that claim. We identified at least two other vendors, located in
                      Washington State and New Jersey, who provided the same type of
                      vehicles. Without competition, the City did not have adequate assurance
                      that the amounts paid for the vehicles were reasonable.

              •       $70,000 expended by a subrecipient for sole source purchases to upgrade
                      the emergency call systems in two HUD-insured multifamily projects.
                      The procurement did not meet the criteria for sole source purchases. The
                                             5
Table of Contents
                    subrecipient, a nonprofit organization, owned the two projects. The City
                    awarded the $70,000 to assist the subrecipient in paying a portion of the
                    $122,110 estimated for the project. The City allowed the sole source
                    purchase based on the subrecipient’s grant application that claimed the
                    services were only available from a single source. The City required no
                    evidence to support that assertion. HUD Multifamily Office files showed
                    that there were other vendors in the area that performed the same type of
                    work purchased from the sole source. Without competition, the City had
                    inadequate assurance that the amounts paid for the services were
                    reasonable.

 Funds Not Used For the
 Approved Activity

             In addition, the City did not adequately support $34,552 reimbursed to a
             subrecipient for costs not related to the parking lot it approved for funding. The
             City awarded the subrecipient $50,000 to help pay for a parking lot that was a
             smaller part of a larger construction project. The subrecipient requested and the
             City approved the $34,552 payment applied against the parking lot award
             although the expenses were for other project costs. The files contained no
             evidence that appropriate City officials reviewed and provided advance approval
             to use the parking lot authorization to pay the other costs.

Conclusion


             The $156,000 in questioned procurements and the $34,552 in unsupported costs
             were not documented as reasonable and proper CDBG expenditures. These
             conditions occurred because the City did not adequately review subrecipients’ use
             of sole source procurements and because it did not adequately review a
             subrecipient’s request for payment for consistency with the funding authorization.

Recommendations


             We recommend that the Director, Office of Community Planning and
             Development, require the City to

             1A.    Support the reasonableness of the $156,000 paid for sole source
                    procurements or reimburse the CDBG program the amounts determined to
                    be excessive from nonfederal funds.

             1B.    Support that the $34,552 was an eligible CDBG expenditure. Any portion
                    of the amount that is not properly supported should be reimbursed to the
                    CDBG program from nonfederal funds.

Table of Contents                           6
          1C.   Implement controls and procedures to properly review sole source
                procurements to ensure that they are justified and do not circumvent
                HUD’s and the City’s procurement requirements.

          1D.   Implement or enforce existing requirements to review and deny any
                payment requests that are not consistent with the fund authorizations.




Table of Contents

                                       7
                        SCOPE AND METHODOLOGY

We performed the review from April to October 2007 at locations in Jacksonville, Florida, for
HUD, the City, and our office. The review generally covered the period October 1, 2004,
through March 31, 2007. We adjusted the period when necessary. To accomplish our
objectives, we

   •   Interviewed officials of the Jacksonville HUD Office of Community Planning and
       Development and the City.
   •   Reviewed and obtained an understanding of the City’s internal controls and control
       environment including the policies and procedures for procurement, public
       facilities/improvement, and limited repair programs.
   •   Reviewed applicable statutes, regulations, HUD handbooks, Office of Management and
       Budget circulars and other program requirements.
   •   Reviewed HUD’s files, including monitoring reviews, action plan, consolidated annual
       performance and evaluation report, and correspondence files.
   •   Reviewed the City’s single audit report for fiscal year 2005.
   •   We selected and used various transactions to determine compliance with program
       requirements. When selecting transactions we considered factors such as dollar amount,
       activity type, and other conditions that were relevant to the audit objectives.
   •   Reviewed CDBG funds expended for public facilities/improvements, the limited repair
       program, the emergency repair program, the utility tap program, and public services. The
       City spent $10.36 million on these programs, of which we reviewed $1.05 million.
   •   Reviewed CDBG procurements of public facilities/improvements, the limited
       rehabilitation program, utility taps, and public services. The City awarded $14.42 million
       in contracts for these programs, of which we examined contract awards that totaled more
       than $2.43 million.
   •   Reviewed monitoring files for two of the forty-three public facilities/improvements
       grants awarded between October 1, 2003 and March 31, 2007.

   •   Reviewed two public facility/improvement and six housing rehabilitation projects for
       compliance of national objectives and eligibility requirements.

   •   Reviewed the City’s cost allocation plan.

We performed the review in accordance with generally accepted government auditing standards.




 Table of Contents
                                             8
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

              •   Controls over activity and participant eligibility and compliance with national
                  objectives.

              •   Controls over financial management including the reasonableness, eligibility,
                  and support for payments.

              •   Controls over monitoring of subrecipient performance.

              We assessed the relevant controls identified above.

 Significant Weaknesses

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

              Based on our review, we believe the following item is a significant weakness:

              •   The City’s controls to ensure proper justification for sole source procurement
                  and support for program expenditures were inadequate (finding 1).


 Table of Contents
                                             9
                                      APPENDIXES

Appendix A

                   SCHEDULE OF QUESTIONED COSTS


                      Recommendation       Unreasonable/
                          number           unnecessary 1/   Unsupported 2/
                            1A               $156,000
                            1B               ________          $ 34,552
                           Total             $156,000          $ 34,552

1/Unreasonable/unnecessary costs are those costs not generally recognized as ordinary, prudent,
relevant, and/or necessary within established practices. Unreasonable costs exceed the costs that
a prudent person would incur in conducting a competitive business.

2/Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or
activity when we cannot determine eligibility at the time of audit. Unsupported costs require a
decision by HUD program officials. This decision, in addition to obtaining supporting
documentation, might involve a legal interpretation or clarification of departmental policies and
procedures.




 Table of Contents
                                              10
Appendix B

            AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                       Auditee Comments

                           HOUSING AND NEIGHBORHOODS DEPARTMENT COMMUNITY
                                              DEVELOPMENT DIVISION




              December 3, 2007

              James D. McKay, Regional Inspector General for Audit
              United States Department of Housing and Urban Development Region
              4, Office of the Inspector General
              Office of Audit, Box 42
              Richard B. Russell Federal Building 75
              Spring Street, SW, Room 330 Atlanta,
              GA 30303-3388

              Dear Mr. McKay:

              This correspondence and accompanying attached documents comprise our official comments
              to the noted finding and recommended corrective actions to the recently completed audit of
              the City Of Jacksonville, Community Development Black Grant Program, Jacksonville,
              Florida.

              Finding 1: The City's Controls to Ensure Proper Justification for Sole Source
              Procurement and Support for Program Expenditures Were Inadequate.

              Response: We (the City of Jacksonville's Community Development Division) will in the future
              make the necessary corrective actions and implement controls and procedures to ensure
              that proper review of sole-source procurements are justified and are consistent with HUD's
              and the City's procurement requirements.

Comment 1     Additionally, we seek to enhance our existing implementation and enforcement efforts
              regarding sole-source procurement requirements to ensure that all applicable sub-
              recipient organizations provide proper documentation and are compliant.

               Details specific to Finding 1 regarding supporting the reasonableness of the $156,000
               paid as a sole-source procurement, we offer the following:


   Table of Contents                         11
                •   Reasonable review was performed by the City in support of the sole-source
Comment 1           procurement of three specially equipped vehicles by a sub-recipient. Several years
                    ago the sub-recipient identified a vendor [from contacts with other Meals on Wheels
                    (MoW) providers] in North Carolina to provide the specially equipped vehicles to
                    deliver hot food to senior citizens. The City’s Department of Procurement’s
                    Administrative procedures states [Sec XII (2)] that a sole-source procurement shall
                    apply when there is only one justifiable source (Attachments G&H). Please note in
                    attachment E that the sub-recipient was unable to locate a retrofitted vehicle vendor
                    to fit their needs after contacting other potential vendors. Therefore the decision to
                    utilize the North Carolina vendor in this case was justified; however, in future
                    procurement activities, the City will insist that the sub-recipient provide adequate
                    documentation regarding the search of qualified vendors providing this unique and
                    qualified service. In this circumstance, we submit that the $86,000 expenditure in
                    costs for procuring these vehicles were justified and qualified under HUD program
                    requirements and should not be reimbursed.

                •   Regarding $70,000 spent by the sub-recipient for the sole-source purchase to install
Comment 1           an emergency call system in two HUD-insured multi-family projects, the City submits
                    this purchase as justified. The $70,000 portion the City awarded to support the over
                    $122,100 in estimated costs was an eligible expense. While several vendors were
                    identified by the non-for-profit to sell and install the emergency call system, only one
                    was found qualified to install and maintain the system without the loss of warranty
                    (please see attachments A – D, F). The other identified vendors were not qualified to
                    maintain or repair the system and if future servicing were required, these companies
                    did not have the certifications to meet the warranty requirements as specified by the
                    call system manufacturer (Please see attachment C). Therefore the selection of the
                    vendor as a sole-source in this case was justified due to a potential loss of
                    equipment warranty rendering the purchase purely a short-term solution for the end-
                    user. In this instance, we submit that the $70,000 expended in this sole-source
                    purchase is qualified and should not be reimbursed by the City as ineligible.

                •   Regarding the $34,552 expenditure as an eligible CDBG expense, we submit that
                    this expenditure is indeed eligible and justified. The $34,552 disbursement in
                    question was made to the YMCA of Florida’s First Coast in support to construct an
Comment 2           undeveloped parcel of land to an active parking lot. The total award amount was
                    $50,000 for an eligible approved activity in an extremely low income area. The
                    project is an eligible public facility and improvement project.

                    The questioned disbursement in the amount of $34,552 was approved, by
                    the appropriate city staff official, to be used for infrastructure work that




    Table of Contents
                                           12
                     included the construction of a culvert for vehicles to have access with right of entry
                     to the site and drainage piping for flooding, to the undeveloped parking lot site.

                     However, there was a prior year awarded contract with the above agency for major
                     infrastructure work that included sewer and water line connections to the main utility
                     system. CDBG funds ($100,000) were used for this activity. The agency could not
                     construct or develop the parking lot without the proper infrastructure improvement
                     listed above.

                     The project file contained a letter documenting the City’s Public Works Department
                     issues with the lack of infrastructure on the parking lot site. The contractor that
                     completed the prior year infrastructure work was given approval to complete the
                     parking lot improvement. A change order was initiated for the parking lot
                     infrastructure work. (See attachments I thru N).

                     It is the practice of the City of Jacksonville CDBG staff to grant approval to an
                     agency for construction cost that is directly related to the project. This project would
                     have not been completed without the infrastructure improvements to the
                     undeveloped parking lot site.

                     This project is located in a census tract that is 70.3% LM. Any CDBG funds used to
                     improve the quality of life of citizens in this area are more than eligible.

Comment 2            Note: Competitive bidding is not required for this amount of funding.


                     This expenditure was part of a larger parking lot construction project approved by
                     the City. The funds in question were required to complete unforeseen preliminary
                     infrastructure preparations related to the parking lot construction project and is not
                     an unsupported separate contract expenditure - but an approved revision and
                     supported eligible expenditure to the original contract.

            In summary, the Office of the Inspector General’s audit of the City of Jacksonville’s
            Community Development Block Grant Program was performed with the cooperation and
            support of the City of Jacksonville’s CDBG staff. Recommendations from audit staff include
            that the City (CDBG staff) establish and implement controls to ensure compliance with
            requirements for sole source purchases and that sub-recipients are only reimbursed for costs
            incurred for activities approved in their funding requests.

            As a corrective action, recommendations from the OIG audit staff will be incorporated in future
            contract management and project monitoring training of all CDBG staff with close attention
            paid to HUD and City requirements for sole source procurements. In addition, implementation
            of a more stringent review of all eligible and reimbursable expenses will be enforced and
            applied to all current




   Table of Contents
                                            13
       and future CDBG eligible projects. Future in-house training of Block Grant Staff will include a
       thorough discussion and review of all applicable CDBG program eligibility requirements.

       In closing, we thank you the opportunity to respond to the audit observations and look forward
       to your final comments and disposition of our audit results. If you have any questions, please
       contact me at (904) 255-8268 or via email at kpinnix@coj.net



                                                        Sincerely,




                                                        Kenneth M. Pinnix
                                                        Chief, Community Development Division
                                                        Housing & Neighborhoods Department
                                                        City of Jacksonville, Florida



       Attachments: A-N




Table of Contents
                                       14
                          OIG Evaluation of Auditee Comments


Comment 1   We acknowledge the City’s response that it will seek to enhance existing
            implementation and enforcement of sole source procurements to ensure compliance
            with requirements. However, the response did not fully justify the questioned sole
            source purchases. For instance, the City referenced attachments C and D to justify
            the $70,000 sole source purchase discussed in the report. The referenced attachments
            were for a different subrecipient transaction with the same vendor that occurred after
            the transaction we questioned. These and the related attachments A, B, and F also did
            not support the City’s claim that only one vendor was qualified to install and maintain
            the system without voiding the warranty.

Comment 2   The City’s response and attachments did not support its claim that the $34,552 was
            for infrastructure work clearly related to the approved parking lot activity. We did
            not review the subrecipient’s procurement records for this purchase. However,
            contrary to the City’s claim, Title 24 CFR 84.40-43, requires all procurement
            activities by nonprofit recipients to be conducted in a manner to provide open and
            free competition.




   Table of Contents

                                         15
